Lange v. CA Service addresses (Sonoma County DA and CDAA as amici)
Petitioner:
Gregory Arthur Lange, Petitioner
Brian Halligan Fletcher
Counsel of Record
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
bfletcher@law.stanford.edu
650-724-3345

Respondent:
Samuel Thomas Harbourt
Counsel of Record
California Department of Justice, Office of the Solicitor General
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Samuel.Harbourt@doj.ca.gov
415-510-3919
Amicus counsel appointed to defend the judgment:
Amanda Kelly Rice
Counsel of Record
Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
arice@jonesday.com
313-230-7926

